4o~
\

C@QCKLE

Legal Briefs E-Mail Address:
8 contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214 Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No,

COMMISSIONER OF CORRECTION,
STATE OF CONNECTICUT
Petitioner

Vv.
JAMIE R. GOMEZ,
Respondent

AFFIDAVIT OF SERVICE

1, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 4th day of August, 2020, send out
from Omaha, NE | package(s) containing 1 copies of the APPLICATION FOR STAY OF JUDGMENT OF THE SUPREME
COURT OF CONNECTICUT PENDING CERTIORARI, WITH ATTACHED APPENDIX in the above entitled case. All
parties required to be served have been served by third-party commercial carrier for delivery within 3 calendar days.
Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
ROBERT J. SCHEINBLUM
Senior Assistant State’s Attorney
Office of the Chief State’s Attorney
Appellate Bureau
300 Corporate Place
Rocky Hill, CT 06067
Tel. (860) 258-5807
Fax. (860) 258-5828
Email: robert.scheinblum@ct.gov
Counsel of Record for Petitioner,
Commissioner of Correction, State of Connecticut

Subscribed and sworn to before me this 4th day of August, 2020.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska
A RENEE J. GOSS Qudraw~ Be. Chih

My Comm. Exp. September 5, 2023

 

 

Notary Public Affiant 40011
Andrew P. O'Shea, Esq.

Damon Kirschbaum, Esq.

Kirschbaum Law Group, LLC

433 South Main Street, Suite 101

West Hartford, CT 06110

Tel: (860) 522-7000

Fax: (860) 522-7001

Email: andrew@kirschbaumlaw.com
damon@kirschbaumlaw.com

Counsel for Respondent Jamie R. Gomez
